<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                    
                         [H.A.S.C. No. 115-95]

                   CYBER OPERATIONS TODAY: PREPARING

                     FOR 21ST CENTURY CHALLENGES IN

                     AN INFORMATION-ENABLED SOCIETY

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 11, 2018


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-569                 WASHINGTON : 2019                     
          
                                   
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Fifteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
JOE WILSON, South Carolina           ROBERT A. BRADY, Pennsylvania
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
MIKE ROGERS, Alabama                 JIM COOPER, Tennessee
BILL SHUSTER, Pennsylvania           MADELEINE Z. BORDALLO, Guam
K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROBERT J. WITTMAN, Virginia          JOHN GARAMENDI, California
DUNCAN HUNTER, California            JACKIE SPEIER, California
MIKE COFFMAN, Colorado               MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
PAUL COOK, California                RUBEN GALLEGO, Arizona
JIM BRIDENSTINE, Oklahoma            SETH MOULTON, Massachusetts
BRAD R. WENSTRUP, Ohio               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               CAROL SHEA-PORTER, New Hampshire
SAM GRAVES, Missouri                 JACKY ROSEN, Nevada
ELISE M. STEFANIK, New York          A. DONALD McEACHIN, Virginia
MARTHA McSALLY, Arizona              SALUD O. CARBAJAL, California
STEPHEN KNIGHT, California           ANTHONY G. BROWN, Maryland
STEVE RUSSELL, Oklahoma              STEPHANIE N. MURPHY, Florida
SCOTT DesJARLAIS, Tennessee          RO KHANNA, California
RALPH LEE ABRAHAM, Louisiana         TOM O'HALLERAN, Arizona
TRENT KELLY, Mississippi             THOMAS R. SUOZZI, New York
MIKE GALLAGHER, Wisconsin            JIMMY PANETTA, California
MATT GAETZ, Florida
DON BACON, Nebraska
JIM BANKS, Indiana
LIZ CHENEY, Wyoming
JODY B. HICE, Georgia

                      Jen Stewart, Staff Director
                Pete Villano, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                         Nevada Schadler, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Alexander, GEN Keith, USA (Ret.), Founder and Chief Executive 
  Officer, IronNet Cybersecurity.................................     5
Chertoff, Hon. Michael, Co-Founder and Executive Chairman, The 
  Chertoff Group.................................................     3
Johnson, Hon. Jeh, Partner, Paul, Weiss, Rifkind, Wharton & 
  Garrison LLP...................................................     7

                                APPENDIX

Prepared Statements:

    Alexander, GEN Keith.........................................    57
    Chertoff, Hon. Michael.......................................    43
    Johnson, Hon. Jeh............................................    68

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Rosen....................................................    81
                   
                   
.                   
                   CYBER OPERATIONS TODAY: PREPARING

                   FOR 21ST CENTURY CHALLENGES IN AN

                      INFORMATION-ENABLED SOCIETY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, April 11, 2018.
    The committee met, pursuant to call, at 10:02 a.m., in Room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order. Looking back at 
my notes from 10 years ago, when Mr. Smith chaired what is now 
the Emerging Threats and Capabilities Subcommittee and I was a 
ranking member, I found a number of references to preparing for 
cyber as a new domain of warfare.
    This committee has held many hearings and briefings on this 
topic over the last decade, and we are continuing with more 
this week, led by Chairwoman Stefanik and Ranking Member 
Langevin.
    We have also enacted a number of legislative provisions and 
authorized a lot of funding, and there's no doubt a lot of it--
progress has been made in building up our military and 
intelligence capabilities in cyberspace.
    But I do not think it is an exaggeration to say that our 
Nation has still not faced up to the threat. Cybersecurity 
means lots of things. Part of what it means is going on down 
the hall in another hearing, but part of it is what we are 
going to talk about today.
    Threats to national security in cyberspace come from 
adversaries stealing information. Sometimes it comes from 
adversaries working to manipulate our decisions and American 
public opinion. Part of it is the potential to disrupt our 
economy and unleash havoc with our financial system, or 
electric grid, or public health and sanitation. And I have not 
even begun to discuss the consequences for the effects of our 
military's ability to operate.
    We still have not answered the fundamental question of what 
we expect the Federal Government to do to defend our citizens, 
our businesses, our infrastructure, and our society in cyber. 
Meanwhile, the capabilities of our adversaries and their 
willingness to use them is growing far faster than our 
response.
    The Director of National Intelligence [DNI] recently 
assessed, quote, ``the potential for surprise in the cyber 
realm will increase in the next year and beyond as billions 
more digital devices are connected--with relatively little 
built-in security--and both nation states and malign actors 
become more emboldened and better equipped in the use of 
increasingly widespread cyber toolkits.''
    Fortunately, our witnesses today have a lot of experience 
and a lot of expertise in these issues, and I am grateful to 
each of them for their willingness to share their views today, 
in the hopes that, not just our committee, but the Congress and 
the country can move at the appropriate pace in confronting 
these challenges.
    Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I agree completely with 
the chairman's opening remarks and will not repeat them. We all 
know the importance of cybersecurity; I think the chairman 
outlined it very well.
    And the challenges that I am most interested in hearing 
from the three of you on, and in--we have all been people that 
have been working on this for a long time, is number one, how 
can we better coordinate the effort? Is--it's, you know, a 
thousand points of failure and then some when it comes to 
cybersecurity.
    And within DOD [Department of Defense] alone--I mean, 
forget about the contractors and all the other pieces of our 
cyber network that are vulnerable to attack. Within DOD, I 
still don't think it's clear who's in charge. I don't think 
it's clear what the strategy is, and I don't think all the key 
components at DOD have any idea of really exactly what--what 
the plan is. Or, overstatement, say ``no idea,'' but they don't 
have a clear plan.
    So how can we develop that agenda so that within DOD we 
have people who are clearly in charge, and we say, okay, what 
is going on in cyber? This is the chain of command. And this is 
what is going on with it, and how we would respond to it.
    Second, I would--do want to emphasize one point the 
chairman made, and that is, when it comes to information 
campaigns and disinformation campaigns, cyber has taken these 
to a whole new level. And I guess one of my frustrations is 
while it's taken to a whole new level, on the one hand, on the 
other hand, it's nothing new. I mean, the medium is new.
    Disinformation, information, whether it's, you know, 
through the radio, or newspapers, or whatever the medium of the 
time was, you know, we have been doing that since the beginning 
of this country. And yet we seem to be unbelievably slow to 
respond to using this new tool, this new medium, for spreading 
the story that we want to spread, whereas in contrast certainly 
Russia, but I also think China, have been incredibly aggressive 
and are unquestionably ahead of us in using this technology. 
How do we catch up?
    And the last thing--great debate about storing information 
in the cloud, using open source software versus closed source 
software, and I have had a number of very, very smart people 
from out in Seattle passionately argue to me that we can better 
deal with cyber--the more stuff we have in the cloud and the 
more we rely on open source software, that it is a better--you 
can better protect that type of software.
    So I am curious what your guys' thoughts are on the cloud 
and open source and how it fits into us developing that cyber 
strategy that we so desperately need.
    And with that, I yield back. Thank you, Mr. Chairman.
    The Chairman. We are pleased to welcome the Honorable 
Michael Chertoff, Co-Founder and Executive Chairman of The 
Chertoff Group and of course also former Secretary of Homeland 
Security.
    General Keith Alexander, Founder and Chief Executive 
Officer of IronNet Cybersecurity, former Director of the 
National Security Agency.
    And the Honorable Jeh Johnson, partner, Paul, Weiss, 
Rifkind, Wharton & Garrison, but also former Secretary of 
Homeland Security, and General Counsel to the Department of 
Defense, which may play a role here.
    Without objection, each of your written statements will be 
made part of the record, and we would be pleased to hear 
whatever oral comments you would like to make at this point.
    Secretary Chertoff.

 STATEMENT OF HON. MICHAEL CHERTOFF, CO-FOUNDER AND EXECUTIVE 
                  CHAIRMAN, THE CHERTOFF GROUP

    Mr. Chertoff. Thank you, Mr. Chairman, and thank you, 
Ranking Member Smith. I appreciate the opportunity to testify. 
I thought I had testified before pretty much every committee in 
Congress, but I hadn't before this one. So you have moved me 
towards a perfect record, or a royal flush.
    I think this is a very timely hearing, and maybe not quite 
as well attended as the one down the hall, but in many ways I 
think focusing on an area that requires greater attention, and 
I think that the opening remarks, I think, make that point very 
well.
    Let me just very briefly summarize a couple of points. 
First of all, there's no question in my mind the threats have 
increased in intensity and frequency. We now are dealing with 
what I would call industrial-scale data theft, whether it is 
the billions of accounts on Yahoo that were stolen, or the OPM 
[Office of Personnel Management] hack, which resulted in north 
of 20 million very sensitive files being taken.
    I mean, this is really theft on an industrial scale, and it 
applies to straight-out criminality, as well as to things that 
are relevant for intelligence purposes.
    We have seen what we call information operations, the use 
of cyber means, including hacking, to disseminate data which is 
part of an attempt to influence and disrupt our elections and 
our democracy.
    We have seen data destruction with ransomware--WannaCry, 
NotPetya--which has had a serious impact on civilian 
infrastructure in various parts of the world, including some 
major enterprises.
    And as was recently announced by DHS [Department of 
Homeland Security], we have found malware in much of our 
critical infrastructure, including our electric grid, and if 
you go back and look at the Ukraine in 2016 and 2017, 
Christmastime, the lights went out because of cyberattacks that 
were mounted against the electric infrastructure there.
    So there's no question whether it's theft of data or 
information, or actually disruptive or destructive attacks. We 
have seen an increase in severity and frequency.
    And I want to be clear by defining a couple of things. 
First, when we talk about protecting the data, we are talking 
about protecting confidentiality, availability, and integrity. 
And that is different than the issue of the content itself.
    And I say that because I know the Russians have a concept 
of what they call information security, which to them means, 
let's keep information we don't like off the network. We call 
that censorship in this country, and it's important not to 
confuse the two, because what we want to do to defend the 
availability, confidentiality, and integrity of data is a 
different set of considerations than when we deal with the 
issue of content that we happen to disagree with.
    So with that being said, let me briefly just summarize a 
couple of points. First, as it relates to defense, I do think 
we have made some progress on unity of effort with the U.S. 
Government, but not as much as we need. In theory, the major 
agencies that deal with cyber--the Department of Defense, 
Homeland Security, and the FBI [Federal Bureau of 
Investigation]--have distinct roles, and when you have a lead 
role of one, for example, in a particular area, and the others 
support, but we need to make sure we exercise that and 
institutionalize it.
    As far as the private sector is concerned, there we have 
the challenges--you have got widely distributed ownership and 
control of infrastructure, and uneven capabilities and 
knowledge about how to defend that infrastructure.
    Some of the things we can do to make that a little bit 
easier are continuing to promote information sharing, 
particularly having it be automated, and having the ability to 
use a common language to describe threats, and I would argue 
also being--making clearances a little bit more widely 
available to the private sector so that there could be greater 
in-depth sharing of information.
    I think the propagation of additional standards about what 
are considered to be good cyber defense measures will be 
helpful to the private sector. And I would also urge Congress 
look at the SAFETY [Support Anti-terrorism by Fostering 
Effective Technologies] Act, which has worked well in promoting 
counterterrorism technologies, as perhaps legislation that 
could be extended to counter cyberattacking technologies, and 
that again would incentivize the private sector to invest in 
better cyber defense.
    And the last area I would look at would be the so-called 
``internet of things.'' We are seeing a dramatic expanse--
expansion of the surface area of attacks through so-called 
``smart objects'' that have very little provision for security 
or cyber defense, including basic things like patching and 
upgrading. And we may need to look at some legal regulations or 
policies that would promote some kind of at least minimal 
integration or security capabilities into these increasingly 
widespread smart devices.
    Finally, on the issue of what we might do in terms of 
either active defense or offense, I would argue that there are 
a couple of areas we should look at. And I don't think it's a 
capabilities issue as much as it is a policy and strategy 
issue.
    First, we need to be clear about standards for attribution. 
What do we expect in terms of the standard that we must meet to 
be confident about our attribution, and how would we announce 
to the world that we have made--we have attributed something in 
a way that we want to respond to?
    Second, I think we need to marshal all of the tools in the 
toolbox in terms of response. It can't only be cyber response. 
Depending on the nature of the attack, it has to be potentially 
criminal, a prosecution, the use of sanctions, and even the use 
of cyber and physical tools to preempt something in an 
appropriate case, when we are dealing with something that 
threatens life or property.
    And finally, a couple of other areas where I think we need 
to focus on international responses. One is coordinating with 
our--our allies in NATO [North Atlantic Treaty Organization], 
in terms of having a common doctrine and a common set of 
capabilities in cyber response, and then looking to creating a 
more robust set of international norms and rules about what is 
off-limits in cyberspace as it is in physical space.
    Because right now, we are not always clear about what ought 
to be considered to be illegal cyber activity under 
international law, and I think the time for some kind of a set 
of norms and laws in this respect is well overdue.
    So with that, Mr. Chairman and Ranking Member, thank you 
very much, and I will be pleased to answer questions.
    [The prepared statement of Mr. Chertoff can be found in the 
Appendix on page 43.]
    The Chairman. Thank you.
    General Alexander.

STATEMENT OF GEN KEITH ALEXANDER, USA (RET.), FOUNDER AND CHIEF 
            EXECUTIVE OFFICER, IRONNET CYBERSECURITY

    General Alexander. Mr. Chairman, Ranking Member Smith, 
distinguished members of the committee, it's an honor and 
privilege to be back here again. I want to hit, over the next 2 
hours, no, the next 5 minutes, five key points.
    First, technology. You both mentioned it. We live in 
exponential times. The amount of applications, the amount of 
data, and the amount of technology is growing--almost doubling 
every year in each category. That means cyber is going to grow 
exponentially, and the problems that we have today, a year from 
now, will be more than twice as large.
    The threats are growing with that. And nation-states are 
now using cyber as an element of national power, not only to--
from a criminal perspective, for stealing money and 
intellectual property, but now to impact other nation-states. 
We see it in Ukraine, you saw it in Georgia, you saw it in 
Estonia. You see it now in the Middle East, in Kuwait, Bahrain, 
UAE [United Arab Emirates], Qatar, in Saudi Arabia, and you see 
it in Japan and Taiwan, and South Korea.
    Countries are being hit with nation-state attacks, and we 
expect, we should expect, that those countries we have 
disagreements with will use cyber to attack us. And we are not 
ready.
    And the reason we are not ready is not because there aren't 
good people in government working hard, it's because, in my 
opinion, we don't have the policies in place, we don't 
understand the roles and responsibilities sufficiently between 
the departments, and we don't train between government and 
industry.
    Let me give you a few examples of what I think we need to 
do, and why we need to do it. And then I will end up with four 
key points that I think, as a government, we need to go forward 
on.
    With respect to the roles of government, it's clear, I 
think, the missions of the Department of Homeland Security for 
incident response, for setting standards, it is clear for the 
Department of Justice what the FBI does in terms of law 
enforcement, and clear in the mission of the Defense Department 
to defend the Nation from cyberattacks, especially from nation-
states.
    The problem. Government, one, can't see what is going on in 
cyberspace like we can in an integrated air defense system. You 
can't see it, and so most of our response is incident response 
and falls on the Department of Homeland Security, who--who 
leverages everything from the other departments have--to help 
do that.
    But that's not what our Nation needs. If you go out and 
talk to companies that have been attacked, they don't want you 
to come and tell you they have been attacked, they want help in 
stopping the attack. And to--to date, most people say it's too 
hard. In the Constitution it says our government is here for 
the common defense. It doesn't say we are here for the common 
defense unless it's hard, we are here for the common defense 
unless it's fast, or we are here in the common defense unless 
it's in cyber. Our job, your job, is how we defend this 
country. And I believe it is doable.
    And the issue gets back to some of the things that you 
mention about the cloud. How do we leverage the cloud for 
pushing up a common picture in cyber where malicious acts are 
going. Technically achievable. And we need to drive towards a 
solution like that, that brings together our government players 
in a coherent, policy-provided path that allows our government 
to work with industry to actually defend this Nation. And I 
think it's doable.
    In my experience in talking to industry is they are--they 
are more than willing, and we have given them the authority to 
share the necessary information with government under the CISA 
[Cybersecurity Information Sharing] Act. We now need to make 
that real.
    But there are still several things that I think limit that 
sharing. One of them is liability protection and the concerns 
of liability. For small and midsized companies, how do we 
incentivize them to actually have good cyber and the ability to 
share real-time information? How do we share this information 
in a credible way, and make sure that the information flow that 
goes back and forth between government and industry is there? 
And that may require, as Secretary Chertoff said, clearances 
from many of those in industry.
    Let me give you one set of examples about how we could 
defend this country. Today, if a bad actor--so, in running 
Cyber Command [CYBERCOM], we would look at how the threat looks 
at attacking our Nation. They don't look at it by company. They 
look at it by the effects they want to do to hurt our country. 
That means the energy sector, the finance sector, the 
healthcare sector, and the government.
    And what they do is they look for weak spots, they get in, 
and then they can cause damage from there. But we look at 
defending at a point, not collectively across sectors. So we 
now have to look at our Nation, and use cyber in a networked 
way, just like we have the internet, so that we can defend it 
at network speed.
    And I put that last part in there--it has to be--
information sharing has to be at network speed if you want to 
stop the threat. And I believe that is viable and doable today, 
and something that we should collectively push for.
    Thank you very much, Mr. Chairman.
    [The prepared statement of General Alexander can be found 
in the Appendix on page 57.]
    The Chairman. Thank you. Secretary Johnson.

 STATEMENT OF HON. JEH JOHNSON, PARTNER, PAUL, WEISS, RIFKIND, 
                     WHARTON & GARRISON LLP

    Mr. Johnson. Mr. Chairman, Ranking Member Smith, members of 
this committee, it is a pleasure to return to the House Armed 
Services Committee. When I was General Counsel of the 
Department of Defense, I testified several times before this 
committee in the years 2009 to 2012. While I was Secretary of 
Homeland Security, I had the pleasure of testifying before 
Congress 26 times in 37 months, and since I have been a private 
citizen now for 14 months, I have testified--this will be my 
third time.
    As Senator Angus King said to me last month, when I 
testified before the Senate Intel [Intelligence] Committee, 
``Mr. Secretary, how can I miss you if you never go away?'' And 
he is right. And one of these days, I do expect to go away, but 
I welcome the opportunity to come here and testify with my two 
friends and colleagues on this important topic.
    You have my prepared statement, in which I tried to 
describe the range of cybersecurity threats that I see, ranging 
from those that this committee is well acquainted with, the 
prospect of a nation-state cyberattack on our critical 
infrastructure, to the issue that the witness down the hall is 
probably testifying about, the inappropriate or unauthorized 
use of private data that American citizens make available on 
the internet.
    In my testimony, I also take on the legal question that 
many ask: what type of cyberattack may constitute an act of 
war? And I will be happy to answer questions along those lines, 
if the committee members have it. In general, I look forward to 
our discussion, and I am pleased to be here with General 
Alexander and Secretary Chertoff. Thank you.
    [The prepared statement of Mr. Johnson can be found in the 
Appendix on page 68.]
    The Chairman. Let me just ask each of you to respond to 
kind of two high-level questions, I guess. One is, my 
perception is the threat is going up far faster than our 
response. We are getting more capable, but as at least a couple 
of you mentioned, our policy's not there. Do you agree with me, 
is the question, that the threat is growing faster than our 
response?
    And the second question is--and I will broaden this to 
Congress--if you could wave a magic wand and have Congress do 
one thing this year in this area of cybersecurity, what would 
you like to see us do?
    Mr. Chertoff. I guess I will begin. I think the answer to 
the first question is I agree with you. I think the threat is 
increasing. I think, again, it's not a--on our side, an issue 
with lack of capability, I think it is that we haven't firmed 
up a doctrine and a strategy for how to respond.
    We are beginning to see some response. I mean, I think for 
example in the criminal side you are seeing some indictments. I 
think sanctions are a potential response. There may be things 
going on below the surface that are not--not visible. But 
there's no question that the threat is intensifying, and the 
boldness of the bad actors is intensifying.
    In terms of what Congress can do, I think on the issues of 
strategy and doctrine, these are--are I think matters really 
more for study than for some specific legislation.
    But I come back to the SAFETY Act. I think in dealing with 
the private sector, one of the issues I hear a lot is, ``Well, 
how much do we invest, and what is the return on investment in 
terms of cybersecurity?'' And one thing that I think was 
demonstrated in the counterterrorism area was the SAFETY Act 
really incentivized the private sector to invest in tools that 
could be used to counter terrorism. Because there was a 
liability protection that came with it.
    And I think extending that to cyber would be a very easy, 
straightforward thing that would begin to create some 
incentives for the private sector.
    General Alexander. So I think, yes, the threat is going up 
exponentially, and technology is fueling that. So, consider 
that they are getting more opportunities and going faster than 
our policy and doctrine is growing, so we are falling behind.
    And if I were to give you one thing--I liked yours, so I 
will add to--a slightly different--we don't have a common 
operating picture for cyber. We can't see, as a Nation, other 
nations attacking us. As a consequence, we have limited 
abilities to actually defend our Nation at network speed, which 
is what will be required, I think, in the next few years.
    So one thing, if you could push to build a common operating 
picture for government and industry for attacks that are 
hitting our country.
    Mr. Johnson. Mr. Chairman, I agree with your assessment 
that the cyber threat to our country is getting worse. I 
believe it will get worse before it gets better, and I believe 
those of us on defense struggle to keep up. I think that bad 
cyber actors, ranging from nation-states, to criminals, to 
``hacktivists,'' to those who engage in ransomware are becoming 
increasingly aggressive, creative, and tenacious.
    If I had a magic wand, and if I were Congress--or, I would 
say a Congress of one--I would in some way--and politically, 
this is very challenging, but in some way find a way to either 
regulate or encourage those in the private sector to embrace 
certain minimum cybersecurity standards.
    I note that the Senate Intel Committee report on election 
cybersecurity encourages voluntary compliance with certain 
minimum cybersecurity standards, but I think that that's a 
commonsense solution to a lot of our problems here, and we 
don't have that right now.
    The Chairman. Let me pose one other brief question to 
General Alexander and Secretary Johnson on the Department of 
Defense in particular. I pick up frustration with some of our 
military folks that they are being held back from being able to 
use cyber tools to the extent they think makes sense.
    And I know there's a number of challenges. Using cyber 
tools may lose you intelligence-gathering capability, all sorts 
of difficult legal issues, and we don't have time at this point 
to go into all of that.
    But I am just wondering if either of you-all have an 
opinion about whether, for the military use of cyber to create 
certain effects, are we moving at an appropriate pace, or are 
we too hesitant to give, say, our combatant commanders and 
other military leaders the tools that we could give them, but 
because this is new and difficult, we are reluctant to do so?
    Mr. Johnson. Mr. Chairman, I think that the perception you 
have detected is probably accurate. Among our military 
cybersecurity personnel, without getting into too much detail, 
I know that some feel that the law and traditional law of armed 
conflict principles, traditional international law principles, 
restrain our ability to use some of our current capabilities.
    And so I share your perception.
    General Alexander. Mr. Chairman, I think what is lacking in 
that regard is rules of engagement. So you have U.S. Cyber 
Command, who has the responsibility to defend the Nation, and 
the issue really comes down to when do you fire back, and what 
authorities do you need to get before you fire back to defend 
the country?
    Most of the time, it would be up to the commander of Cyber 
Command to do it and ask forgiveness. That's not a good place 
to put a military person in. You need rules of engagement that 
say, ``If I see an attack that is going to destroy our energy 
sector, our finance sector, or something, and I have got 60 
seconds to act,'' you want that person to do the right thing. 
You need to give them rules of engagement, and get the 
government to agree, and you all to agree to those, and then 
train to them.
    And that's something I think that's sorely lacking, at 
least when I was commander of Cyber Command.
    The Chairman. Okay, thank you. Mr. Smith.
    Mr. Smith. Thank you. We have talked a little bit about the 
sort of rules of engagement. I think this is one thing that is 
a significant problem is our adversaries feel like they can 
operate, to a certain degree, with impunity, because we have 
not made clear how to respond.
    What I would like from you--and I will get a little bit 
more of a preview of this is--what would that look like? If you 
said if you were God, you know, what would you say what should 
our rules of engagement be? You know, some have said that, you 
know, a cyberattack is an act of war--I don't want to go there.
    I don't think that a cyberattack is equivalent to 9/11, or 
equivalent to if, you know, Russia or anyone else were to 
launch missiles at us. I don't--I don't believe that if we 
suffer a cyberattack, we should start bombing whoever it is we 
think attacked us.
    What would be an appropriate response, so that people felt 
like there was a price to pay if they continued to attack us 
through cyber? And they--they could do a lot worse than they 
have done, but they--there certainly have been--you know, even 
as we sit here, I am sure there are cyberattacks going on. No 
one knows what the consequences are. What should they be?
    General Alexander. So I will give you my thoughts----
    Mr. Smith. Sure.
    General Alexander [continuing]. On responding to an attack 
against the country, and I will use the 2012 attacks that 
occurred. And in those time, it was my experience that the 
attacks that were coming against our country could have been 
stopped and turned off, not destructive attacks, but blocking 
attacks. But some of those blocking attacks would be in foreign 
space. So that creates the norms that Secretary Chertoff 
brought up, and some of the issues.
    Now, interestingly, most of those systems that are being 
attacked have been exploited by a bad guy to attack us. So the 
country that's--whose device--computer sits in their turf is 
actually being used to shoot us. In physical space, if somebody 
put a weapon in neutral space and started shooting at you, you 
have the right--inherent right for self-defense. I think we 
need a similar thing in cyber, where you can defend it.
    Now, the administration needs, beyond the blocking 
mechanism--so, my rules of engagement aren't to go out and try 
to take out a country, it would be stop it, give the 
administration the opportunity to think of what elements of 
national power they want to use to counter it, and that could 
be diplomatic all the way to the military.
    But what--what you are asking, and the Cyber Command forces 
to do, is block that attack and give you the time you need to 
make a decision on what elements of national power.
    Mr. Smith. I guess one sub-question on that: How easy is it 
to know where the attack is coming from? This is a matter of 
no--no small importance, given our current debate about Russia 
and what they are doing to elections and everything, you know, 
you--you have sat there, and you have--you have looked at that, 
so all of you have.
    Is it really true that sometimes you can't tell, or are you 
pretty confident from your position that after a few hours that 
you know where it's coming from?
    General Alexander. I think our attribution improved 
immensely. And you would have to ask them where they are today, 
but from 2005 to 2014, it was significant growth in attribution 
at network speed. The issue may not be that you have it down 
100 percent of which element in a country is doing it----
    Mr. Smith. Right.
    General Alexander. But for the picture that I talked about, 
if you had that picture, it becomes increasingly clear. And the 
intelligence agencies can provide the rest of the picture if 
you give them the information at network speed. So hopping 
through a number of channels, what you need to do is see those 
at network speed. You can see how that plays out, and pinpoint 
where it goes back.
    Mr. Smith. The bottom line is we ought--we ought to be able 
to do it, so then we can have the--that's once we figure out 
what the appropriate response is to this, at least we know who 
to send it to. Do either of you----
    Mr. Chertoff. I would just--I would add just a couple of 
elements to this. First of all, on the issue of attribution, 
the challenge is not only to determine which is the server from 
which the attack originates, but to what extent you can--you 
can----
    Mr. Smith. Who did it?
    Mr. Chertoff [continuing]. You can pin that on a--on a 
government agency. And one thing we have seen the Russians do 
is create a deniability situation with criminal groups, where 
the--essentially, the argument is as long as you don't commit 
crimes in Russia, you--feel free to go and do whatever you have 
to do overseas, but when we call on you, you will help us get 
into something. So that gets into a legal issue about how we 
hold countries accountable when they provide tacit 
encouragement.
    The second issue, which is challenging, is unlike in the--
in the physical world, where you could see a missile or a 
bomber coming from overseas, you could easily have a nation-
state attack launched from a cafe down the street here in 
Washington from a thumb drive. We have built our doctrine in 
terms of what the military can do, and in terms of the away 
game and the home game, and we may need to revisit when we use 
some of our away powers for attacks that emanate from home.
    Mr. Smith. I want to let some other people get in here, so 
just very, very quickly, how does the DOD's plan to move into 
the cloud and more use of open source software impact 
cybersecurity? If you can give me, like, just 30 seconds apiece 
on--because that's the direction we are heading in. How does 
that impact our ability to protect ourselves?
    General Alexander. I think by and large it's a good thing. 
We need to do that to get the collective picture. So going 
there, I think you can provide the security--the secure web 
gateways and stuff that are coming in, the tools that are 
going--I think it provides better security. You alluded to 
that, and I think you are correct.
    It's more--it's easier to do it in that way. You just make 
it--need to make sure you have the resilience.
    Mr. Smith. Okay. Anybody else want to comment on that? 
Okay. Thank you very much, Mr. Chairman, I yield back.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thanks, Mr. Chairman, and thank each of you for 
being here today, and your obvious many years of service to our 
country and dedication to the American people. And I want to 
begin by thanking Chairman Mac Thornberry for this very 
important hearing, as I believe that information warfare will 
expand beyond the current and future battlefield.
    I would also like to thank and congratulate Chairwoman 
Elise Stefanik for her leadership on the Emerging Threats and 
Capabilities Subcommittee, advancing American interests in 
cybersecurity to protect American families.
    A concern that I have in--General, you actually brought it 
up, and then you have all touched on it, but it's so critical 
and that is how do U.S. agencies conduct a measure of 
cyberattack? Do all agencies share a common metric to measure a 
cyber incident?
    Last year, I introduced H.R. 1030, the Cyber Attack 
Standards of Measurement Study Act, which would require the 
Director of National Intelligence, in consultation with the 
Secretary of Homeland Security, the Director of the FBI, and 
the Secretary of Defense, to conduct a study to determine 
appropriate standards to measure the damage of cyber incidents 
for the purposes of determining the response to such 
incidences, and to include a method for quantifying the damage.
    And General, beginning with you, but actually all three of 
you, I would like to know: Do you believe that we--having a 
common interagency metric for measuring a cyberattack would 
benefit the coordination of a response? And then secondly, 
should there be an appropriate counter response to whoever 
conducts the attack?
    General.
    General Alexander. I have some out of bounds thinking here 
in terms of DHS, but yes, I think you ought to do standards. I 
think I would take it one step further. I think the Department 
of Homeland Security, with what they are running in the NPPD 
[National Protection and Programs Directorate], and where they 
have the security operations centers, should actually provide 
for the common defense for the rest of government and the 
ability to do it.
    I don't think the smaller government agencies have the 
technology and the people to do that. I would consolidate that, 
just as business does, and give that authority there. I think 
that would help in what you are trying to do.
    Mr. Johnson. Congressman, I think that the legislation you 
cited sounds like a good idea to me. I would be careful, 
though, that in terms of trying to measure the effects of a 
cyberattack, it's not necessarily one-size-fits-all, because 
you are assessing, say, the theft of personnel security 
records, versus the theft of something in the Department of 
Defense.
    And I endorse what General Alexander said, that there are 
smaller Federal agencies that are simply not equipped, and need 
the Department of Homeland Security for a lot of help in this 
area.
    Mr. Chertoff. And I am in complete agreement with that 
suggestion as well.
    Mr. Wilson. Thank you, again, and it is really just so 
frustrating to think of how blatant the attacks on American 
citizens, our government, our businesses--but not just us, as 
we see our allies in the Baltic States, or our allies in Korea, 
in Japan.
    Another concern I have is with attribution. We have a 
significant and persistent obstacle in--facing our ability to 
respond. Do you believe that state actors--and again, General, 
you get stuck with this first, okay? But that state actors such 
as China and Russia take advantage of vulnerabilities in our 
ability to legally attribute a cyberattack.
    What can Congress do to address this issue of attribution?
    General Alexander. Well, I think, first--and Secretary 
Chertoff made a comment on the attribution, and I would just 
agree with that. That's very difficult. Something that we need 
to work, and I believe Russia and China use forces that they 
can push out there to go after us, which makes this very hard.
    I don't know the best legal way to do it, but I think 
that's a discussion that has to be had as a Nation. I think we 
are going to see that--and you have mentioned the Baltic 
States, Eastern Europe, and we are going to see it in the 
Middle East, and I believe with events going on in Syria and 
elsewhere, it's going to hit our country. So we need to get out 
in front of that.
    Mr. Chertoff. I mean, I agree with what General Alexander 
said. Look, the challenge with attribution I don't think is so 
much a technical challenge as a decision we have to make about, 
A, the level of certainty we need for certain kinds of 
responses, and B, the extent to which we are prepared to 
publicly reveal why we make a certain attribution.
    So we have seen lately, for example, the Department of 
Justice charged a couple of FSB [Federal Security Service] 
Russian intelligence agents in the case involving the Yahoo 
hack. That's a good thing. I think sanctions can be a better 
thing.
    Now, if we were to get into something that was really 
seriously destructive, with a loss of life, such that it might 
warrant a response at the level of warfare, then we might want 
a higher standard. I would rather have that discussion, at 
least quietly, now, than try to figure it out when we are in 
the middle of an attack.
    Mr. Wilson. Thank you very much. And Secretary Johnson, I 
look forward to getting with you later. Thank you.
    The Chairman. Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and thank you to all 
of you for being here. Along with the--the discussion that we 
were just having, little bit about IP [intellectual property] 
abuse, and we know how destructive that can be. And what is a 
realistic course of action? And at what point do we know 
whether the actors have actually changed their behavior?
    Mr. Chertoff. So, let me take a crack at this. And as--I 
begin by saying IP theft is not, in my mind, an act of war, but 
it's obviously wrong. I think one thing we could consider doing 
is this: If we see stolen IP actually being used by an 
enterprise, we could then, I think, go after the enterprise 
legally for that, and exact a serious economic injury.
    And frankly, I think one of the reasons the Chinese agreed, 
several years ago, that commercial espionage to help their 
enterprises was not appropriate was a recognition that the 
sauce for the goose could become sauce for the gander as well. 
And I am not naive, I don't believe they have totally stopped 
it, but I do think that using that kind of economic leverage 
can help.
    Mrs. Davis. Uh huh.
    General Alexander. I think it's the greatest theft of--and 
transfer of wealth in history, from our Nation. It affects our 
future generations. So that IP theft we have got to stop. I 
think sanctions and tariffs and other things are one way.
    More importantly, we need to fix our defense. Right now, we 
are so porous because, as a Nation, we are doing point defense 
on every point, and they are looking at this as a large target 
and only find one ``in'' and they are in. And everybody's going 
to make a mistake. So we have got to come up with a more 
comprehensive collective solution.
    Mrs. Davis. Is--go ahead.
    Mr. Johnson. I agree that IP theft is a significant 
problem, and it encompasses national security as well. Theft of 
intellectual property by nation-states is a significant problem 
that this committee should be very concerned about.
    Mrs. Davis. Could you speak a little bit more to who's in 
charge? Because we talk about--excuse me--we talk about the 
integration of effort, and yet it's difficult, who actually is 
in charge? And when it comes to private companies, who do they 
see as in charge? What is their perception of who's actually 
making the rules?
    Mr. Johnson. We--we made an effort at this in the last 
administration, and there's always the temptation, with every 
new administration, to try to reinvent the wheel. But in 
general, the Department of Defense, NSA [National Security 
Agency], Cyber Command, should be responsible for defending the 
Nation against an attack and the security of our military 
systems.
    Law enforcement is--should be responsible for the threat 
response. In other words, you report the crime to law 
enforcement, whether it's the FBI, the Secret Service, or HSI 
[Homeland Security Investigations], and the Department of 
Homeland Security should be responsible for asset response, the 
forensics, patching the vulnerabilities. And so, the way I used 
to describe it when I was in office, ``Jim Comey is the cop and 
I am the fireman, and you call both of us when you have an 
attack.''
    Mrs. Davis. Yes, yes. But at the same time, I think 
there's--you are--we are talking about a common operating 
theater, and are there authorities that still are unclear? And, 
you know, just to what extent have we been a little slower to 
come to that, so that--so that there is a common sense, or a 
common knowledge, really, of----
    Mr. Johnson. Well, despite what I just articulated, I think 
that there is still a lot of--a lack of public awareness about 
who is in charge. And it has to be a whole of government 
approach, but the lines of authority need to be reiterated and 
stressed over and over----
    Mrs. Davis. Is there a cultural problem in doing that?
    Mr. Johnson. In my experience, cultural problems stem from 
the leadership. If the leaders of the organizations know and 
trust and respect each other, then that filters down in the 
culture. But leaders turn over. I thought at DHS we had an 
excellent working relationship with the FBI in part because Jim 
and I were friends for over 25 years. And that filters down.
    But with each political turnover, with each new 
administration----
    Mrs. Davis. Right.
    Mr. Johnson. The personalities change.
    Mrs. Davis. What role does the executive play in that?
    Mr. Johnson. I think that it's important for the executive 
to reinforce continuity and consistency in the protocols and 
how everyone should work together, so that it eventually 
settles in to how we approach this issue.
    Mrs. Davis. Yes. Thank you. Thank you, Mr. Chairman.
    General Alexander. Can I add to that one? Because I think 
it's important. The question that you are asking is who's in 
charge. You know, we had--when we were starting out in standing 
up Cyber Command, Secretary Gates had some great ideas about 
how you pull together all of government into a comprehensive 
solution.
    And he thought of, how do I pull what we are doing in the 
Defense Department, Justice Department, and Homeland Security 
all together, so that we can act in peacetime--seamless from 
peacetime to crisis to a war? And I think that's the kind of 
solution that we need to look at as a country.
    And right now, as you note, it's fragmented. And it was 
great working with Secretary Johnson, it was great with 
Secretary Chertoff, but the reality is there are personnel 
issues, resource issues, technology things.
    And I agree, the FBI was great to work with for me. You 
know, it was--they were amazing, and whenever--we would assume 
they would have had the lead because of law enforcement, but if 
it was nation-state it would flip to us.
    So I think you need to figure out--we need, as a 
government, to put that together somehow. Some have talked 
about a Secretary of Cyber. I am not sure I would go that far, 
but I would sure look at how you nest between Homeland Security 
and Defense Department common authorities and a common 
structure between those to get that going, and append to that 
FBI.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Johnson, you went 
to school in Atlanta, at Morehouse, I know, and as we discussed 
earlier, and the city of Atlanta on March 22nd was attacked 
with--as I understand it, the SamSam ransomware. The people 
asked for a $51,000 ransom, a fairly small amount, but my 
understanding is that that group has raised almost a million 
dollars from different attacks, and these attacks have been 
going on since 2015, with that type of ransomware.
    Now the $51,000 is not a whole lot of money to a city like 
the city of Atlanta. The damage that was done and the cost to 
the city of Atlanta is going to be in the millions, in shutting 
down courts, the inability to pay fines online, the loss of 
time of employees. I don't know what it will total up to, but 
it will be millions of dollars that the ransomware costs.
    My question gets into, since this has gone on since 2015, 
the SamSam ransomware, has there been a coordinated effort from 
the U.S. Government to find out where these attacks, these 
SamSam attacks are originating and how will we stop them? And 
if we do find out where they are originating from and who is 
doing it, how effective are our laws with regard to the 
prosecution of that crime if it is in the U.S. or if it is 
outside of the United States?
    Mr. Johnson. A coordinated effort to--you know, I don't 
know that there is, within the FBI, for example, a ransomware 
bureau devoted to those who engage in this, and as I think you 
point out, those who engage in ransomware are open and 
notorious. It's becoming a bigger and bigger business.
    I suspect that--and Mike could probably speak to this, 
too--I suspect that the existing laws in title 18 are 
sufficient to deal with this as a crime, but in my experience, 
most often ransomware stems from a simple act of phishing or 
spear phishing, where an employee who uses the system opens up 
an email or an attachment that they shouldn't, and the actor is 
in the system and they can steal things in the system.
    And so a large part of the answer to the ransomware problem 
is simply raising the awareness of those who use systems about 
opening emails that you don't recognize and attachments you 
don't recognize.
    But I suspect and believe that the existing laws are 
probably sufficient to deal with this once you can track down 
the bad actor.
    Mr. Scott. So one of the questions that has been asked of 
Mark Zuckerberg is about the fiduciary duty to protect 
information. So banks, financial institutions, the government, 
the city of Atlanta would have a fiduciary duty to protect the 
information that they had in their computer systems.
    What about the networks? Should the networks have a 
fiduciary duty to protect the information that they are 
housing?
    Mr. Johnson. A fiduciary duty, if not a legal duty, to 
protect the information that they are the custodians of. A bank 
certainly has a fiduciary duty to protect the information with 
which it is entrusted, and the management of these banks have 
fiduciary duties to their shareholders as well.
    And so I am sure that there are certain obligations that 
those who manage networks have to the customers that rely on 
them.
    Mr. Scott. I am short on time. I guess that the challenge I 
see in this area--if someone goes to work for a Google or an 
Oracle or a technology company, they may make in a month, if 
they are good, what we pay people in a year. And it--it seems 
to me that some way, some how, the laws are going to have to 
incentivize those companies to do everything they can to stop 
these types of attacks. Not because we don't have capable 
people, but because there's so much of it going on out there 
that we need--we need their help in doing this.
    And so sometimes they see it--would see it even before--
even before we would see it. So I have an Ag [Agriculture] 
meeting at the top of the hour, but I appreciate all of you 
being here, and thank you for your service to the country.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman, and I want to thank 
our witnesses for your testimony today and for your service to 
the country. Over the many years that we have all worked on 
this issue of cybersecurity, I have had the pleasure of having 
you testify before me, whether it's on the House Armed Services 
Committee, or the House Intelligence Committee, or the House 
Homeland Security Committee, and I have always deeply 
appreciated your thoughtful answers and your contributions to 
better protecting the country in cyberspace.
    So, you know, the one question that I still continue to get 
from--from people back home is, you know, why aren't we more 
effective at defending the country in cyberspace? Why are we 
still seeing these high-profile cyber intrusions or attacks, if 
you will? And I--you know, obviously the answer is we are 
getting better at it, but it's a very hard thing to defend 
against.
    And we have the NSA with Cyber Command that is trying to--
basically defending the dot-mil network. The Department of 
Homeland Security is in charge of defending the dot-gov 
network, although they don't have the policy or budgetary 
authority to reach government to actually compel departments 
and agencies yet to do what needs to be done. That's why I have 
long advocated for the bill I put in, the Executive Cyberspace 
Authorities Act, to have someone with that kind of policy and 
budgetary authority.
    But yet most of the damage can still be done in the dot-com 
world, particularly in critical infrastructure, and no one 
really is in charge there, and no one has the authority, and I 
don't know the American people, you know, would accept--and I 
don't think they would accept having NSA or Cyber Command 
sitting on the network internally to defend in the dot-com 
world.
    So, what is the best way forward to in fact defend the 
country? And, General Alexander, you and I have talked about 
this--you know, right now--and you have often referred to it 
as, you know, ``We are still playing clean-up on aisle 9.''
    I am interested further in your thoughts about the idea of 
deterrence in cyberspace. The new U.S. CYBERCOM Command vision 
talks about defending forward as far as possible before 
adversaries penetrate our defenses. And this sounds somewhat 
like the old adage of the best defense is a good offense.
    And so do you agree with this posture? And if we see things 
in cyber that--whether it's a nation-state or criminal 
enterprise about to do something--is it best that NSA or U.S. 
Cyber Command inform private industry about--about the 
impending damage that could be inflicted and let them defend or 
fix the problem? Should NSA or U.S. Cyber Command take the 
action to stop it, or turn it off, as you say?
    What is the best way forward to handle these challenges?
    General Alexander. So first, I think the--in setting the 
defensive infrastructure, the first thing we need to do--and 
DHS would have the lead on--set the standards of what industry 
has to do. Here's how you lock your doors, here's how you 
encrypt your stuff. And set standards, and Congress can set 
incentives for small, midsize, large companies to do that. Then 
if they are attacked by something that exceeds those standards, 
they should have some form of protection.
    And part of that standard should include sharing 
information under law--CISA-level information, not personally 
identifiable, but threat intelligence, cyber intelligence 
information at network speed with the government so the 
government can do what you suggest.
    And it falls then on the government--who's role is it? If 
it's criminal, it's going to go to FBI. If it's a nation-state, 
and an attack that's going to hurt our country, that's where 
you want Cyber Command and NSA to be actively involved. And if 
it's foreign coming in, you want NSA's intelligence to help 
inform law enforcement and the defense on how to defend that 
government.
    So I think the key thing that you can help do here is help 
industry set standards, give them the incentive to do that, and 
the liability protection if they meet those. Because the 
lawsuits are way out--way out of bounds, and companies that are 
being attacked by nation-states don't have the ability to 
defend. Sir.
    Mr. Johnson. So in the Cyber Security Act of 2015, Congress 
established limits on criminal and civil liability for those 
who share cyber threat indicators with the Department of 
Homeland Security. So that's a good thing.
    The problem we have is--and we set up, on my watch, 
automated information sharing with the private sector--and 
Keith is right, there's a lot that private sector can benefit 
from if we at the national level are able to share the threat 
streams that we see, but there's also a lot that the government 
can learn from the private sector. Things that are happening 
within the private sector that the government doesn't 
necessarily know about right away.
    I have been disappointed that not more entities in the 
private sector are willing to share information----
    Mr. Langevin. I agree.
    Mr. Johnson [continuing]. With the Department of Homeland 
Security because they are concerned that it will go public, it 
will be compromised in some way, and that's a--that's a real 
problem, that's a real dilemma. There are many, including 
people in Congress, who believe that there ought to be 
mandatory disclosure by Federal agencies in certain 
circumstances if we know about something.
    And that, frankly, compromises DHS's ability to encourage 
the private sector to come to us and work with us.
    Mr. Langevin. Well, my time expired, but thank you all for 
your testimony here today, and your answers, and I yield back.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman. I have three 
questions, and I am hoping to get through all three, so I will 
start with you, General Alexander.
    You helped build Cyber Command. What steps do we need to 
take in this year's NDAA process to mature Cyber Command? And 
then, look forward 5 years. What does Cyber Command need to 
look like 5 years from now?
    General Alexander. I think first the unified command is the 
right next step, getting to a unified command. I think the 
rules of engagement discussion that we have is the second thing 
that I would push at. The third is with government as a whole, 
including Cyber Command, how do we defend the country?
    How do we, as a government, work together to defend this 
Nation? And bring it out and have a public discourse on how we 
are going to do that. Don't go into the tools and all that, but 
talk about why the information that's being shared is necessary 
to defend this country.
    Ms. Stefanik. Thank you for that. My second question has to 
do with emerging technologies. When we consider what the world 
of cyber looks like, quite soon I think of threats like AI 
[artificial intelligence] and quantum computing. What--how do 
these technologies play into the future of cyber warfare, and 
we need to be thinking about as policy makers? I will start 
with you, Mr. Chertoff.
    Mr. Chertoff. Well, I think on--on AI, as with most 
technologies, there's an upside and a downside. There's no 
question from a threat standpoint the ability of an adversary 
to automate the ability to test and try to break into a 
network, or even to use that for kinetic purposes, increases 
the threat.
    But the good news is I think, particularly if you use 
behavioral analytics, AI can be a good way of defending the 
network in depth, which is what we need to do.
    Quantum computing, I think it raises some issues about 
encryption. And encryption is a major security tool. There's a 
view, however, that quantum computing can eventually make it 
very easy to penetrate encryption. It may also be the case, 
though, that it may be a tool to actually enhance encryption.
    So in both of these cases I think we have to watch 
carefully to make sure that, to the extent the threat is 
increasing, we are using these technologies to increase our 
resistance.
    Ms. Stefanik. General Alexander, I will go to you next, but 
I want to also add an additional question related--are we 
underinvesting in these spaces?
    General Alexander. No, I was going to hit just on that, Ms. 
Stefanik. I think first we have to lead globally in quantum 
computing and AI. The country that is the leader in those two 
technologies will be the future superpower. That needs to be 
us. And so we aren't investing enough, and this is a huge area.
    And there are some great experts in government at 
classified levels in both, and I would encourage you to get 
with those.
    I think in quantum computing what Secretary Chertoff said 
is exactly right, both good and bad. AI the same thing, and you 
have seen Elon Musk and Gates go at this, both pro and con. I 
think the good part of it, it will help us solve cancer and 
other things, and I think there's tremendous good. The bad 
parts, it means your decision cycle is going to be extremely 
fast in cyber and the attacks are going to grow, so we have to 
be ready.
    Ms. Stefanik. Mr. Johnson.
    Mr. Johnson. I agree with what Keith just said. I think 
that we need to invest in cyber talent in the Federal 
workforce. All of our best talent in the DHS, the people that 
can actually explain this to me, get stolen into the private 
sector because they are able to pay multiples of what we pay in 
the Federal Government.
    Congress has done some things to enhance our ability to 
hire cyber talent, but I think that's definitely a work in 
progress.
    Ms. Stefanik. Thank you. And my last question I will try to 
get through quickly, each of you have testified to the 
importance of improving interagency coordination and 
information sharing. I want to drill down into the specifics. 
What specific actions can we take from the HASC [House Armed 
Services Committee] perspective to improve this interagency 
collaboration and ensure that we are improving our readiness?
    Mr. Chertoff. So one suggestion--and actually back in 2008, 
General Alexander and I talked about this--would actually be to 
create--to co-locate representatives of the three major 
government agencies in a setting that would allow them to have 
a common operating picture in real time about what is going on.
    General Alexander. We actually built an integrated cyber 
center up at Fort Meade, where you would see the center of some 
of that, and so I would encourage that, to build that common 
operating picture so that you can see the attacks, and each 
part of government could coordinate what their response would 
be. Right.
    Mr. Johnson. DHS has actually built an integrated cyber 
center, too, called the NCCIC, the National Cyber 
Communications Integration Center. And it's an interagency 
operation, and I think we need to bolster that and improve upon 
that.
    Ms. Stefanik. Thank you, my time is about to expire. I 
appreciate the answers.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. I would like to yield 
my time to Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Larsen. Thank you, Mr. Chairman. 
Thank you to our witnesses for your service to our country.
    Secretary Johnson, I was very impressed by footnote 5 in 
your testimony, where you talk about the definition of cyber 
warfare. And you explain your view that we should have a 
limited definition of cyber warfare. One could imagine the 
Russians creating cyber dislocation in Latvia, and the last 
thing we would want is to be bound, under NATO, to go to war 
over that.
    And I was surprised reading it that you wrote that we don't 
have a definition of cyber warfare in the government, and I 
would be curious about your thoughts of what Congress or the 
government should do so we have a clearly defined standard for 
cyber warfare.
    Mr. Johnson. You are correct. We spent, in the Department 
of Defense, as some members of this committee will know, 
literally decades writing a law of war manual that I think 
started in the 1970s. And it was finally published in 2013 or 
2014. And it barely touches upon cyber, because cyber didn't 
exist when we began writing it.
    And so beyond answering the question, may a cyberattack 
constitute an act of war? There is a lot more that needs to be 
filled in in the blanks. You know, what constitutes a 
cyberattack? What are the implications of that? What are the 
acceptable parameters for how we respond? What are the limits 
on the private sector in their responses?
    But the basic legal question is one I was interested in, 
and I basically defer to those who have already written on 
this, which is what I said in my statement. That you have to 
look at the kinetic effects rather than the kinetic means. And 
I caution against reaching for something that's too creative 
and too expansive, because it would have implications globally. 
And so it's sort of like be careful what you ask for.
    But I think there's a lot more work that needs to be done, 
limited simply to cyber--if you will, cyber warfare, what 
constitutes a cyberattack, and what their--what are the 
acceptable protocols. And there are aspects of the existing 
laws of armed conflict that we can borrow from. Necessity, 
proportionality, distinction in a cyber response; I think there 
are elements of law of war principles that are useful in 
developing this, but it's something we have to undertake to do.
    Mr. Khanna. Well, I appreciate it. I certainly learned a 
lot, and I hope you will use your expertise to help guide this 
committee, Congress, and the Executive Branch as we try to 
define that, so that we don't find ourselves in a war, 
escalating because of too creative or expansive a definition.
    I was also struck, where you talked about the coordination 
in the private sector with cybersecurity. I mean, it's always 
struck me that we don't have companies having their own armies. 
That thought would be absurd. And yet, we have all of these 
companies having their own cybersecurity operations.
    And the question, to any of the witnesses, is what can we 
do to make that less of a burden, so that if you are a small 
business or you are a company, you don't have to have your own 
army to protect your cybersecurity? Is there a role for the 
Federal Government to do this, like we have an Army, and an Air 
Force, and a Navy to protect our Nation?
    Mr. Johnson. Well, it's the basic response of the national 
government to defend the Nation against an attack. And on the 
civilian side, law enforcement, the Department of Homeland 
Security can share information, encourage best practices, but 
at the end of the day, whether you are the CEO [chief executive 
officer] of a large public company or you are the manager of 
your own business, you have to be responsible for the security 
of your own systems. And there are a lot of outside experts 
that can help with that in the private sector.
    This inevitably has to be a public-private endeavor, 
because of the nature of cybersecurity.
    Mr. Chertoff. Yes, I would add to that, that I think for 
the smaller enterprises, there are now managed security 
services that can actually do that as an outsourced function. 
And one of the benefits they have is if they are working with a 
lot of different companies, they are seeing a lot of activity 
over the landscape, and that actually makes them better.
    General Alexander. And I agree with that approach. I think 
the key is, and this is where Congress could help, if you set 
standards through DHS that industry meets, and you are 
protecting against what I will call a reasonable threshold of 
attacks, and then somebody comes in with a nation-state-like 
attack, just as in the physical world, you have all your bank 
guards, you have all these folks working it, and if the--a 
motorized rifle regiment comes in and wipes them out, you would 
say, well, shoot, you should have had air defense systems.
    And the reality is when it gets to nation-state level, you 
have to have nation-state response. I think getting there means 
everybody gets to a certain standard, and then shares at 
network speed across government so the government agencies can 
do their specified roles.
    Mr. Khanna. That's very thoughtful. I really appreciate the 
testimony of the witnesses on this issue.
    The Chairman. Mr. Banks.
    Mr. Banks. Thank you, Mr. Chairman. Gentlemen, in my State 
we have already seen the consequences of cyberattacks. This 
past January, a criminal hacking group was paid $55,000 in 
Bitcoin as ransom to regain access to a hospital computer 
system at Hancock Regional Hospital in Greenfield, Indiana. 
This came at a time during flu season, when the systems and the 
information they contain was critical to providing health care.
    With--while this was a criminal action by one group 
targeting a single hospital, the effects of a state actor using 
cyberattacks on the public health system or other critical 
infrastructure would be disastrous, given the systematic 
vulnerabilities.
    So my first question, for all three of you, is since much 
of the Nation's critical infrastructure is privately owned, 
what if--what efforts need to be taken now to better secure 
cyberspace activities essential to their daily operations? And 
we can start with you, Mr. Chertoff.
    Mr. Chertoff. Well, you know, I think this is--again, 
there's not a magic bullet answer to this. And the analogy I 
often use is the public health analogy. You know, how do we 
protect ourselves against disease and illness? It requires some 
things the government does in terms of formulating vaccines, 
but it requires us to take certain steps.
    So in the case you are talking about, look, a lot of these 
ransomware attacks occur because somebody downloads something 
they shouldn't, or because you haven't patched or updated. And 
those are things which are on the responsibility of the private 
sector actor to do.
    Then there are other elements, you know, particularly when 
you are dealing with a nation-state, where our ability to 
perceive that something is being readied for an attack could 
arguably call for us to act preemptively. Certainly, if there 
was the possible consequence of loss of life.
    So I think this is--there's not going to be a single step, 
it's about raising the level of cyber hygiene for the owners or 
operators of the critical infrastructure. It's about backup for 
the critical data. It's about training people about the silly 
things they ought not to be doing. And then when you do see a 
nation-state fixing to do something, then there's a--I think 
room to have a discussion about do we act to blunt that away 
before it hits us at home?
    Mr. Banks. General.
    General Alexander. So I agree. I think setting the 
standards, getting everybody to build and work at those 
standards, and then sharing information across the government 
is the way to do this. Ransomware, the year of ransomware, of 
2016, 2017, it's going to continue. They are making money on 
it.
    And so the issue for the government will be how do we 
respond, between law enforcement, intel, and defense? And then 
what can we do in hygiene to help defend against that?
    And I think that's where the common operating pictures of 
what you are doing for incident response and helping critical 
infrastructure, and what you are doing to defend the Nation 
need to be merged.
    Mr. Johnson. I agree with everything that's been said. I 
would add to that that there are lots of people who are part of 
critical infrastructure who don't know that they are part of 
critical infrastructure. For example, arguably election 
infrastructure, before I made it explicit, was already part of 
critical infrastructure, because it's part of government 
infrastructure.
    And so a beginning point is to educate those in critical 
infrastructure that they have a heightened duty, and, 
therefore, need a heightened awareness.
    Mr. Banks. So along those same lines, one of the difficult 
issues, culturally, for hospitals and other private sector 
entities is information sharing with the government about their 
systematic vulnerabilities. What--what can we or should we do 
to improve the culture of information sharing between the 
private sector and the government that would involve critical 
infrastructure? And, Mr. Johnson, we can start with you.
    Mr. Johnson. We have already done a fair amount. Congress 
has already done a fair amount, as I mentioned earlier, by 
enacting limits on criminal and civil liability for those who 
share cyber threat indicators. DHS has established automated 
information sharing that has a privacy scrub that goes with it.
    And I think it's really a matter of raising the levels of 
trust and lowering the barriers of suspicion that exist right 
now. And there's a lot more work that needs to be done there, 
because not enough in the private sector, in critical 
infrastructure, have the type of partnership that I think they 
need to have with DHS to effectively deal with this issue.
    General Alexander. I think for most hospitals--there's two 
hundred and some in New York City alone, they should outsource 
it and get a comprehensive solution across all of them. Their 
focus is on saving people. And if they are spending a lot of 
time trying to defend their networks and keep their equipment 
up, then they are not doing this. I think we have to look at it 
more like that. Secretary Chertoff brought up part of that, and 
I believe that's the correct way to go do it.
    Mr. Chertoff. I would simply add to that, I think we need 
to educate hospitals and medical facilities that they are in 
fact critical infrastructure, and they are in fact targets. We 
have information sharing and analysis organizations that are 
platforms for sharing.
    One other thing that I would say--and I have talked to 
people in the medical community on this--as we multiply smart 
medical devices that are connected to the internet, we have to 
be very careful we are not creating serious vulnerabilities 
that would lead to a loss of life. So pacemakers or various 
kinds of injection pumps, if they were wirelessly connected can 
be very beneficial, but the devices could also be an attack 
vector and we need to look to the FDA [Food and Drug 
Administration] as well as the industry to focus on that.
    Mr. Banks. Thank you. My time is expired.
    The Chairman. Mr. Veasey
    Mr. Veasey. Thank you, Mr. Chairman. General Alexander 
mentioned something earlier, but I think that anyone can answer 
this. And I wanted to know, do you think that we should be 
looking at bolstering the military and State Department when it 
comes to dealing with this issue?
    And the reason why I mention that is because it seems to me 
that if attacks on small to midsize allies are occurring, that 
they may--that that also may be an issue of governance that 
they have within their countries by not being able to manage 
all of this. And just wanted to know if you had any thoughts on 
that.
    General Alexander. I do think alliances are going to be 
extremely important in cyber. And it's important for two 
reasons. One, to get the norms and the group together, and 
second, we learn a lot by seeing where others are attacking. 
Most attacks that hit our country are tested elsewhere. The 
more partners we have, the smarter we will be in defending 
ourselves.
    Mr. Veasey. And also, General Alexander, I wanted to ask 
you, because small and midsize allies in certain countries that 
we are trying to give assistance to, they have had trouble 
managing their natural resources. How--how do you help 
countries like that manage something as sophisticated as cyber, 
you know, defense? Like, how do you empower them to do that 
when they have had trouble just managing just basic needs of 
running a country, you know, previous to all the cyber issues 
that we had?
    General Alexander. So that's more difficult. I think there 
are some countries that you can help right off the bat, and I 
encourage our government to work with those that they can help 
protect. You can see a live fire, in terms of cyber going on in 
the Middle East. Partnering with the Middle East to help solve 
that is going to be extremely important. The same in Asia; we 
are seeing a lot of attacks. And in Eastern Europe.
    Each of those have different groups. I was in a discussion 
with some of the folks from NATO a couple days ago. Doing a 
common defense with NATO and helping them set a standard would 
lighten our load, increase what they could do, and bring that 
collective body together as well.
    Mr. Veasey. And Secretary Johnson, I wanted to ask you, you 
said in your comments earlier that you think that there 
should--if you had your way, that you would have, in businesses 
and governmental entities, have some sort of minimal standards 
when it comes to protecting their cyber.
    I wanted to ask you about the cost to that. Do you think 
that, in order for smaller or midsized businesses, and even 
smaller municipalities, to be able to really put the 
protections in place that they need--like, how much money would 
something like that run a smaller entity?
    That could certainly be maybe a softer target, it wouldn't 
be as large of a target as a large city, but could certainly be 
a softer target. Like, what sort of resources would they need 
to bring to the table in order to meet those minimal standards?
    Mr. Johnson. Well it depends on the nature of a business 
and the nature of the information it possesses and how it 
conducts business. Without a doubt, encouraging companies, 
either legislatively or otherwise, to embrace best practices 
probably means embracing a certain level of technology.
    But we are all as strong as our weakest link. And so if you 
have a company in a supply chain that invest millions and 
millions of dollars in their own cybersecurity, but they do 
business with a supplier that doesn't, then the big supplier up 
the chain is at risk because they are doing business with 
somebody who doesn't see this as an issue.
    But in my engagements in the private sector, I would 
encourage CEOs to view cybersecurity in the same way they would 
view physical security, the care and custody of their 
customers' intellectual property, and so forth, so that we 
don't view this as simply a side issue that's going to require 
some money.
    It's a basic issue of security. As someone mentioned 
earlier, in many cases it implicates a fiduciary duty that 
someone may have. And so, sure, is it going to be an 
investment? Absolutely. But if you want to be the best at 
something, you have got to make investments in technology.
    Mr. Veasey. Right. And it would be interesting--my time is 
about to expire, and I will just add this at the end--you know, 
it would be interesting to get your comments on, like, as a--
say a company that supplies a defense contract or a small, you 
know, midsize company that is a supplier--for them to be able 
to meet those same requirements could be much more onerous than 
the defense contractor, for instance. So, just something to 
think about.
    Mr. Chairman, I yield back my time. Thank you.
    The Chairman. Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman. General Alexander, you 
are--you have made a recommendation to bring the responsibility 
for private sector outreach and the defense community under a 
single authority. Can you elaborate further on that, and why 
that's important?
    General Alexander. Well, I think having unity of effort is 
very important. And right now, everybody's really busy. And I 
look at how hard Homeland Security, with all the things that 
they are doing, Defense Department with what they are doing--
when I was asked earlier by one of the members why aren't we 
making more progress, and the answer is everybody's busy 
handling a lot of things. Do you appoint somebody and hold them 
accountable for moving this, and going back to Homeland 
Security, and the Defense Department, and Justice to get it 
done?
    I think the answer is yes. And where and how you place that 
entity is where I would get the Secretaries of Defense, 
Homeland Security, and Department of Justice together and say, 
iron it out. I think with Secretary Gates, Secretary Chertoff, 
in their seats back then, another couple of years and I think 
that would have been solved. And now I think what we need to do 
is look at that and say, how do you do that?
    Because there are specific missions. You don't want the 
Defense Department going out and trying to police up all the 
incident response. You don't want them setting standards and 
looking--that's Homeland Security, and they have that, and they 
should do that. You want the Defense Department to defend the 
country. But both of those require for you to see this, and 
have this entire spectrum of cybersecurity visible to all the 
actors. It's not there. And we need to fix that.
    Mr. Hice. I would like to hear the opinion from the other 
gentlemen. Mr. Chertoff.
    Mr. Chertoff. I mean, I agree with General Alexander. I do 
think that there are distinct roles and responsibilities. The 
key is to have clarity about who supports and who's being 
supported in each of those roles.
    Mr. Hice. Okay.
    Mr. Johnson. I agree with that, yes, sir.
    Mr. Hice. So all three of you agree that there ought to be 
a single authority, however that's decided, then? Now, when I 
walked in a little while ago, Secretary Johnson, you were 
touching on this, so I would like to--I will just go to General 
Alexander--regarding how to improve the ability to recruit and 
retain our cyber experts. Do you have any thoughts on that?
    General Alexander. Yes. What we did, Congressman, at Cyber 
Command--we are not going to keep all these guys for a long 
time, but if you can get them to commit for 6 years, and get 
them in training for a year, this would be great for our 
country both in the military, in government, and then in 
industry.
    So I think what the government can do is help train and 
educate a large population, not just for the Defense 
Department, but also for Homeland Security. And part of that 
training could be we will provide your training, you commit to 
a period of time in government.
    And, you know, I really believe that young people should 
serve in government. I really do. And so this is a way to 
incentivize it, and you give them a future, and you help our 
country. That's what I would do. There are many young folks out 
there that can't afford college, but they are built for cyber. 
And we ought to latch on to them.
    Mr. Hice. So what timeframe do you think they ought to be 
able to make a commitment?
    General Alexander. Well, I would go for 6 years, with one 
of those or one and a half being a commitment for education, 
and I would advance the education, similar to what the Defense 
Department does for the joint cyber ops [operations] center--
school, but I would do that a little bit longer with some of 
the defense and all that, and I would mix them all together.
    And the reason is you want the people that work in 
government to work together.
    Mr. Hice. Okay.
    General Alexander. And so the military and civilian.
    Mr. Hice. I see some head-nodding.
    Mr. Johnson. I would concur with what he said. My message, 
when I was in office, to young people continually was if you 
want to--if you want to go work for The City Group, or Goldman 
Sachs, or J.P. Morgan Chase in cyber, come serve your country 
for a few years and get that benefit of those insights.
    And then the struggle becomes they all are drawn to the, 
you know, perceived ``cool'' agencies, like NSA, and so we have 
to encourage them to want to work in the civilian agencies as 
well.
    Mr. Hice. Okay. Last question. Is the--in your opinion, is 
the Cyber Mission Force adequately sized for the challenges it 
faces? General.
    General Alexander. I think it is right now.
    Mr. Hice. Okay.
    General Alexander. What I would encourage is a set of 
exercises with that force with the rest of government, and 
perhaps key players from industry and Congress, to look at that 
and see the challenges. I think the teams and the construct of 
the teams were right. We have based those on other teams that 
were very successful for our country. So I think it was the 
right thing.
    We were encouraged initially to cut it back. And I said, 
but this is what it takes. And we--40 teams of a certain type 
offensive, 68 defensive teams that would work with--DHS and 
others, and the 25 analytic teams. I still think that's right.
    Mr. Hice. Thank you. Thank you, Mr. Chairman, I yield.
    The Chairman. Mr. Garamendi.
    Mr. Garamendi. First of all, Mr. Chairman, thank you for 
setting up this hearing. It's extremely important and the three 
gentlemen that are testifying have a wealth of wisdom.
    If I might, recently the Department of Homeland Security 
issued a--an alert that Russia had hacked into critical 
civilian infrastructure, gaining access to our power grids, 
power plants, and other industrial plants, and in some 
instances, gaining operational control.
    Is this an act of war? I think that word was used by the 
Department of Homeland Security. If yes, what is the 
appropriate response?
    Mr. Johnson. Congressman, I would characterize what is in 
that statement as a very significant threat to our Nation and 
our national security, but I would not characterize it, in and 
of itself, as an act of war.
    Mr. Chertoff. I agree with that. I mean I think that--and 
it's often difficult to tell when you find malware in a 
network, what the purpose of it is. And often it has multiple 
purposes.
    You know the--it could be at one level, reconnaissance. It 
could be deterrence in the sense of a way of signaling to the 
U.S., look what we can do and, therefore, if you mess with us 
we are going to do this. Or it could be prepositioning 
something for an attack, or all three of those.
    But I would agree with Secretary Johnson that positioning 
is not the same thing as actually carrying out an act of war. 
Now, if you shut the lights off and there was a serious loss of 
life, then we are getting into territory----
    Mr. Garamendi. Well, they did shut down a reservoir, if I 
recall correctly.
    Let me just move on. So, it's not an act of war. That 
brings us to the rules of engagement, doesn't it, and to the 
definition thereof. We are not going to get to that today, but 
both of you--all of you have said this is critically important.
    General Alexander, you have danced around this issue of 
being able to comprehend when an attack is underway, and to be 
able to act. You haven't been specific about that. If you would 
take a moment or two to discuss that, and then my final 
question is, we have an annual exercise with CYBERCOM working 
with DHS and so forth.
    Let me just--I am going to hold General Alexander my 
question. Do you all want to stay with this other question I 
had.
    So that annual exercise would seem to be exactly what this 
Russian intervention--we won't call it an act of war, but 
intervention into our critical grids, was designed to deal 
with.
    So what comes of this? Should we not be using the 
techniques that come from that annual exercise to deal with 
this Russian hacking into these grids?
    General Alexander. Sir, I think the issue for them hacking 
into this grid is they are trying to gain insights into the 
operations of our network for future use. I agree with what 
Secretary Chertoff said. I don't think this is an act of war. I 
think it's an act of intelligence gathering and positioning for 
future conflict.
    What it does show you is that we have to have visibility of 
those types of attacks. So you asked specifically, what does 
that mean? And I will give you an example.
    If you look at what happened to Saudi Aramco, the 
destructive attack into Saudi Aramco with a wiper virus 
actually went on for about 2 months. No one had insights into 
that because nobody's looking at Saudi Aramco. And our 
government cannot see today actively what is going against our 
energy sector.
    The energy sector actually has been the great--the best to 
work with in this area. They are pushing to really step that 
up. I think their--their strategic infrastructure, coordinating 
council and things that they put forward is exactly right. But 
it needs to go to the next step. How do you get that data up to 
government so you can build that picture so you can see Russia 
coming in.
    And the answer is you don't see that. NSA doesn't see it, 
CYBERCOM doesn't see it, DHS doesn't see it. So what happens is 
they are getting hit, they are--they don't have the ability to 
share it. They don't know they are getting hit or they would 
have stopped it. So our common operating picture, it's like 
it's free for them to get in. We have to build the system up 
and make that visible.
    Mr. Garamendi. We are going to write the National Defense 
Authorization Act in the next 2 months. What should be written 
into that to deal with this precise problem?
    Mr. Alexander. Well, I think it's to build a common 
operating picture and sharing. I would emphasize that the CISA 
Act of 2015 and take it to the next step and say--and encourage 
companies and government to work together and to train and 
practice so that--I would look at this as strategic 
infrastructure coordinating council and encourage councils like 
that, where you bring industry into government to share this 
information is exactly right.
    That puts CEOs in the seat.
    Mr. Garamendi. You used the word encourage.
    General Alexander. Strongly. I don't know what you can do 
with industry, but you know----
    Mr. Garamendi. Encourage them hard.
    General Alexander. I think--I don't know that you need to 
mandate it, because I do believe they are sitting forward. They 
want help. They want the government to help them. They know 
they can't defend against a nation-state. And they know that--
especially in the energy sector, they are critical to the 
future of this country.
    Mr. Garamendi. I am well over my time. I will yield back, 
but I would love to have you gentlemen help us write that 
encouragement.
    The Chairman. Ms. Hartzler.
    Mrs. Hartzler. Thank you, gentlemen. I appreciate your 
expertise and insights on this really critical issue. The 
Missouri National Guard was the first State to fully staff a 
National Guard computer network defense team to respond to 
cyber threats and attacks. And this unit, located at Jefferson 
Barracks in St. Louis, is consistently sought out to train both 
National Guard forces across the country as well as Active 
Duty.
    These National Guard members are in a unique position 
because they can utilize their civilian roles, training, and 
expertise into their military cybersecurity roles. And I think 
we can all agree that the private sector moves faster with 
technological innovation so by using citizen soldiers, we can 
leverage new ways of thinking into the military. So what do you 
think should be the force structure of Active Duty, Reserve, 
and National Guard cyber warriors? I am not sure who wants to 
start off.
    General Alexander. So actually, you have hit on it. When--
at Cyber Command, we encouraged, and we had several States set 
up National Guard with cyber forces--Delaware, Mississippi, 
Washington, and others for just that reason. I think that is an 
exceptional way and you hit all the key points. There are great 
people in the commercial sector who want to help the government 
but they don't want to sacrifice the--the pay.
    So they can do both and they do--and there are great people 
there. I think that's exactly the way to go. The issue that 
will come up is now how do we bring those all together for the 
common defense, as things go from peacetime to crisis to war, 
something that we need to look at.
    Mrs. Hartzler. And I think you mentioned as well that they 
are--you support training them and then having a 6-year 
requirement. In a way, this kind of fulfills that a little bit. 
We train you and then you can go out in the private sector, but 
then come in on the weekends and you bring your expertise and 
to address things and be called up when needed. Secretary 
Chertoff.
    Mr. Chertoff. Yes. I was going to say, I think that it is a 
little bit like the ROTC [Reserve Officer Training Corps]. I 
think that's a great idea. I mean, these days, we are looking 
to train people for the 21st century skills. If you bring them 
in and you train and they make a commitment to serve Active for 
a period of time and then they work in the National Guard, 
that's a win-win for everybody.
    There are two other advantages. One is the relationships 
that are built wind up, you know, going on beyond the actual 
term of service. And one of the things I learned in law 
enforcement was a lot of the sharing and a lot of the 
coordination comes from personal relationships. And secondly, 
in terms of a common language and a common approach, it gives 
you a baseline commonality.
    So I mean, I--if you were going to do something relatively 
dramatic, I think having an ROTC-type program to train and get 
service in this area would actually be a real benefit.
    Mrs. Hartzler. Makes sense. When I visited this unit, even 
though it's not in my district, I was so impressed. Several of 
them said we are in charge of security for Fortune 500 
companies. And we see things during the week. And we are saying 
oh my goodness, we need to come--when we come back on--on our 
Active Duty assignment and apply those things to protect our 
Nation. So it makes sense to me. Mr. Johnson, did you--were you 
wanting to add something there?
    Mr. Johnson. No, I endorse everything that's been said.
    Mrs. Hartzler. Oh, good. I wanted to go back, General 
Alexander, to something you said that piqued my attention in 
your testimony. And then just recently, as you were talking 
about integration of infrastructure. And I understand this 
isn't quite the same. But there's a lot of discussion about the 
DOD's contract and building the cloud and whether it should be 
one cloud or whether there should be multiple clouds that we 
would use. Do you have an opinion on that?
    General Alexander. Well, I think in any instance, a cloud 
provider is going to have multiple instances. And so I would 
look for multiple instances for resilience. And no matter which 
one you choose and how you choose it, that means you don't put 
all your eggs in one facility. So when you think about the 
cloud, they build up a huge set of capabilities in a facility 
and then they build multiple facilities to give you that 
resilience.
    I would look at the facilities, the resilience. And there 
are tremendous companies out there doing cloud capabilities and 
that's growing. I think that's part of the future, especially 
for mobile communication.
    Mrs. Hartzler. Okay. And the last question. Switching gears 
a little bit. What are we doing to mitigate the exfiltration of 
massive amounts of unclassified data from our cleared defense 
contractors? And is it working? And what would you do 
differently to protect this data? Who's going to take that?
    General Alexander. Well, I worked with the defense 
industrial base [DIB]. And great people. I would pull them 
together into an integrated infrastructure, call it a DIB 
infrastructure that works together so you can see what nations 
are going after defense information or related information, 
encourage those. We actually ran that. When you were the 
general counsel, we would call the defense industrial base 
working group.
    We didn't go into it to that level, but I would build that 
up analogous to the way we recommended doing the same thing for 
small and midsize agencies, I would do that and offer that the 
DIB as part of the way of them bringing in. So beyond FedRAMP 
[Federal Risk and Authorization Management Program], which is 
the standards that they have to achieve in cybersecurity, I 
would go for a collective security approach.
    Mrs. Hartzler. Thank you. Yield back.
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair. Kind of attaching some 
questions onto my good friend from Missouri, you know, and 
talking to some of my friends, we have to--we have a dearth of 
actual capable cyber warriors. And I had some friends that I 
served with in the war that actually came out and created and 
went through all these different programs to actually retrain 
them to being quote, unquote ``cyber warriors.'' I have heard 
criticisms from colleges and universities that these programs 
are too staid and too static to adequately train students for 
the real world threats that are always changing.
    So do you, one, see the quality and quantity of 
cybersecurity graduates as a problem? Number two, if so, what 
can be done to improve the dynamism and efficacy of 
cybersecurity education currently right now through our public 
and private schools or any other methods. We need to start from 
left to right.
    Mr. Johnson. Well, I have to say I have been impressed 
recently when I've visited colleges and universities at the 
level of interest in a cybersecurity education. And very often 
there's also an interest in serving in national security in 
cybersecurity. It doesn't surprise me that you you have heard 
some of the concerns that have been expressed because really of 
the newness of the topic.
    And so there probably needs to be a concerted effort at who 
are the educators because this is rather new generation 
phenomenon, so a lot of interesting stuff----
    Mr. Gallego. And who is going to be providing the 
curriculum also. I know the educators are important, but also 
sometimes the educators are behind the eight ball when it comes 
to curriculum.
    Mr. Johnson. Correct. Right. I agree with that.
    General Alexander. So let me just add. DHS and NSA actually 
have a joint venture to work with colleges to set up a level of 
curriculum. So I think that's a great starting point. More 
importantly, look at the change in technology. It's doubling 
every 2 years. That means half of what kids learn in their 
freshman year is outdated by their junior year.
    So we are training people for technology that doesn't 
exist, hence the problem that you bring up. Using applications 
that haven't been created. And so what that means is we now 
need to teach people how to learn, not just what to learn. And 
that's got to be part of this whole process and that's what I 
think you are actually getting to.
    Mr. Chertoff. I would agree to that. I think a critical 
point is what you are doing is training people how to train 
themselves and that way can be a continuous process because 
it's not going to be like most subjects where you learn it and 
then it remains current. It's going to change very very 
quickly.
    Mr. Gallego. In many of the universities that I visited or 
even community colleges there is usually like a corporate 
advisory board just basically that meets with the professors 
and with the educators who create a curriculum that is always 
staying up to date with whatever changes. Not to just 
obviously, cybersecurity or technology, but whatever field that 
they are working on.
    What is our equivalent in our government to that? Is there 
a working group of both national leaders, defense leaders, as 
well as private sector leaders that are helping--who are 
helping our educators, whether it's community colleges or 
universities, keep up to date the curriculum? I know we kind of 
hit on that, but is there an actual formalized structure for 
this kind of interaction?
    General Alexander. So they actually do that between DHS and 
NSA, and now Cyber Command. They update that curriculum all the 
time and it's on the web so you can actually go to the 
information assurance director dot-gov I think is the IAD 
[Information Assurance Directorate]. And I think DHS has the 
same one. And it lays out all the standards and they update 
that continuously.
    Mr. Gallego. And then is the private sector at all involved 
in this curriculum--making of this curriculum?
    General Alexander. Well to the extent that they reach out, 
but they aren't part of the accreditation process.
    Mr. Gallego. Right
    General Alexander. I believe they provide input from both 
DHS and NSA.
    Mr. Gallego. Understood. Thank you. I yield back.
    The Chairman. Mr. Bacon.
    Mr. Bacon. Thank you, Mr. Chairman and I want to thank all 
three for your service and your leadership. Appreciate you 
being here. I have a few questions for General Alexander, and 
if time permits, one for the whole panel.
    First of all, for General Alexander, right now we have one 
four-star for NSA, Cyber Command, and the two deputies, the 
three-stars, sort of run those organizations. But that provides 
us cohesion, unity of command, but yet I know there's proposals 
to provide two different four-stars, one for each NSA and Cyber 
Command.
    And I fear that that will pull those teams apart, because I 
know and you know--I am a cyber and SIGINT [signals 
intelligence] guy by trade as well--that our intelligence seems 
to be closely linked with our offensive and defensive 
capabilities. I would like to know, where do you fall on this, 
and where are we at with this discussion?
    General Alexander. Well, I--I actually believe you have to 
have unity of command. If the decision is made that it's too 
big for one person, and then you put two four-stars, you then 
have to put somebody over top of both of them.
    Mr. Bacon. Absolutely.
    General Alexander. Between them and the Secretary [of 
Defense] and the DNI, and so that creates additional 
infrastructure.
    So before we do that, I would encourage us to look at how 
we are going to fight in cyberspace, and the roles and missions 
of both NSA for reconnaissance and Cyber Command for military 
actions. And NSA may have responsibility in covert actions----
    Mr. Bacon. Yes.
    General Alexander. So you have this nesting. I think I 
would look towards unifying versus diversifying those 
capabilities.
    Mr. Bacon. My experience is the same. I just know there's 
proposals here to do that, to separate it, and I think it would 
be damaging to the cyber mission, because the intelligence 
portions of this are so closely linked to our offensive and 
defensive, you can't have two four-stars with two different 
priorities and keep those teams cohesive. So I just wanted to 
make that point, and I appreciate that you feel the same way.
    On the cyber mission teams, are we fully operational, or 
initial operational? Where are we at?
    General Alexander. Well, so I am a bit dated. I have talked 
to Admiral Rogers, and they have made great progress. My 
understanding is they are, in most of them, fully operational-
capable, but I am not sure how many of the 40 are at the level 
and where they have tested them.
    So I know we were making progress 4 years ago. I have not 
kept up specifically on that. I do think this will get back 
to--now we have another group that we are going to be training, 
and always going through, so I don't know the answer to that.
    Mr. Bacon. Okay, thank you. One more question, and then I 
have got one for the panel. I think you talked about the right 
to self defense? Let me just play on that a little bit. I 
think, if we are only defensive--if we play defensive only, it 
doesn't serve deterrence well, and I think it makes us more of 
a punching bag.
    I think we do need to have some--to practice some of our 
offensive muscles, mainly to serve as deterrence and make 
attacks on us less often. Are we doing enough in the offensive 
realm to show, hey, when you attack us, you are vulnerable for 
a counterstrike?
    Where do you all--and I'll open it up for anybody, if you 
feel like we are in this--in the right spot here.
    Mr. Johnson. Congressman, as long as our intelligence 
chiefs tell us that certain nation-states are continuing to 
engage in bad behavior against us in cyberspace, then we--then 
the answer is no, we are not doing enough, obviously.
    And nation-states, whether they are communist regimes, 
dictatorships, monarchies, all behave a certain way. They all 
decline to engage in behavior that is cost-prohibitive if there 
is a sufficient deterrent in place.
    And to go back to what you said earlier, I believe that 
components of an effective defense can also include offense.
    Mr. Bacon. All right. Yes, go ahead, sir.
    Mr. Chertoff. Yes, I would, I would agree. I would say 
there are two elements in deterrence. Deterrence by denial, 
which means we raise the barrier to doing something, and 
deterrence by response. We have done some things, particularly 
lately, that are a little more responsive, but as we see bad 
behavior we may need to dial that up a little bit.
    And the one thing I want to just be careful about is not to 
treat the issues about information operations as the same thing 
as cyberattacks----
    Mr. Bacon. Right.
    Mr. Chertoff. Because that raises a whole set of 
complicated issues.
    Mr. Bacon. Intelligence versus offensive is----
    Mr. Chertoff. Correct.
    Mr. Bacon. Totally two different things, and reconnaissance 
has a long history of being not a combat operation, so I 
totally agree. And it's my feeling, too, that we are not 
showing enough teeth or offensive muscle and it doesn't serve 
deterrence well. It makes us more vulnerable to the other 
nations' attacks. One last question. And this gets to some of 
the earlier questions on the energy grid.
    I am deeply alarmed by it. I think we are vulnerable to the 
next December 7th not being airplanes and torpedoes, but 
rolling blackouts and--and havoc in our society. Are we doing 
enough to build resilience in the defensive realm to protect 
our energy grid? And I realize that is more of a homeland 
security perspective.
    Mr. Johnson. I have been impressed that certainly larger 
entities and public utilities recognize their vulnerabilities 
and the risk and are doing a fair amount. Again, I come back to 
the importance of information sharing about threat streams. And 
no matter how sophisticated you are, you can always benefit 
from more information, the larger picture at work.
    And that's where I think we need to continue to focus and 
where I think Congress should continue to encourage the private 
and public sectors to work together and share information.
    Mr. Gaetz. Thank you, Mr. Secretary. I am out of time, so I 
yield back. Thank you.
    The Chairman. Mr. Panetta.
    Mr. Panetta. Thank you, Mr. Chairman and thanks to the 
three gentlemen who are here today. I appreciate you being here 
as well as, of course, your stellar service, so thank you very 
much. Clearly cyberattacks are one of the main tools of what 
has been termed lately as guerrilla geopolitics, and what are 
being used more and more by the revisionist powers that we are 
hearing about.
    You today have done a good job saying what is not an act of 
war. And Mr. Chertoff, you started to get to the point in--in 
Mr. Garamendi's questioning about shutting off the lights, 
significant loss of life. Could the three of you please give me 
further examples--in your opinion, obviously, of what you would 
feel would qualify as an act of war using this tool?
    Mr. Johnson. Congressman, any cyberattack that has kinetic 
effects--physical destruction, death, physical injury--in my 
judgment would constitute an act of war.
    Mr. Chertoff. I agree with and I--what I would emphasize is 
this. It's effects based. It's not based on the particular 
tool. Whether you are dropping a bomb or you are--you are 
sending something over a network, if you are killing people, 
that's an act of war.
    Mr. Johnson. For example, we look at chemical weapons and 
we measure the impact by the effects that chemical weapons 
have, then we see the images. So I think you have to focus on 
the effects.
    Mr. Panetta. Understood.
    General Alexander. I would add in intent. So there I 
believe you are going to see some countries who push out 
something--and we have seen this already here in our country, 
where the attack was going against a different--but the malware 
hit our country and hit some of our industry. The intent wasn't 
to hit us. It was the collateral damage, not an act of war, but 
something that they should be held accountable for. I do think 
so.
    If they have the intent to do us harm and they have the 
kinetic effects to go with it, I believe that's an act of war.
    Mr. Panetta. And if the means were solely done through 
cyber, should the response be solely done through cyber?
    Mr. Johnson. As a legal matter, the answer is not 
necessarily. There--there is no legal requirement for a 
response in kind.
    General Alexander. Yes. And I--I agree. I think you want to 
hold all the elements of power and give the administration the 
authority to use them all.
    Mr. Chertoff. I also agree.
    Mr. Panetta. Good. Good. And are--I would imagine the three 
of you are familiar with the Tallinn Manual 2.0. Would you feel 
that this is--that basically that the principles that are 
articulated in this under international law, are they 
effective?
    Mr. Chertoff. It depends what you mean by effective. I 
think that international law and law of armed conflict ought to 
apply against cyber as well as kinetic. Whether people are 
observing them is a different issue. Where the challenger 
becomes, it's easier to mask what you are doing in cyberspace, 
generally, than what you are doing in the physical space.
    So you get a lot of denial and deniability, which is why 
ultimately, enforcing the rules comes back to the level of 
certainty you need to have with attribution. The value of this, 
though, is--particularly with respect to our allies--and I have 
had discussions with them about this. If they agree with us 
that there's a violation of international law by what another 
country does, then they are prepared to take countermeasures 
that would be more vigorous than if they viewed it as not being 
a violation of law of armed conflict.
    Mr. Panetta. Would you agree? Great. And Mr. Johnson.
    Mr. Johnson. The one legal issue that I think deserves a 
lot of attention in this area are the principles around 
neutrality. We talked about this earlier and Mike talked about 
this earlier, where there's a nation-state that is doing 
something directed at us, originating from a neutral country. 
And the current principles, frankly, are insufficient to deal 
with this problem.
    And it's something that we confronted time and again at 
DOD, and I am acquainted with at DHS. And so I think that more 
thinking needs to be put into what do you deal with when an 
attack is originating from or working its way through a neutral 
country. How do you deal with that?
    Mr. Panetta. Got it. Got it. Gentlemen, thank you. I yield 
back. Mr. Chairman, thank you.
    Ms. Stefanik. Mr. Carbajal.
    Mr. Carbajal. Thank you, Madam Chair. Enemies that wish to 
destabilize our democracy have found a new frontier that I 
believe we are not adequately prepared for. And as you have 
touched on in your testimony. Today, I am interested in the 
role of the National Guard in response to a potential 
cyberattack. As a military asset with dual State and Federal 
roles, I believe they have a critical role to play in 
protecting our Nation's critical infrastructure.
    If a cyberattack were to shut down critical infrastructure 
sectors such as the electrical grid, water, banking or 
transportation systems in California, an interagency response 
would be necessary. Law enforcement, first responders, owners 
of infrastructure sectors, the National Guard, and other 
Federal and State entities must have an integrated response and 
know how to work together. This requires us to train in a more 
integrated environment.
    In this regard, I believe there is a significant training 
gap. Currently, there are no local programs in place that I am 
aware of for cyber network defense teams to receive continuous 
training to defend the Department of Defense information 
networks while exercising their defense capabilities in a State 
environment. Army cyber protection teams currently report to 
Fort Meade to receiving training in their title 10 mission.
    But they still lack training relative to defending critical 
infrastructure. In California, the National Guard has embarked 
on a collaborative multiagency cybersecurity training effort 
that provides an environment specifically created for 
integrated training, allowing them to exercise their defense 
capabilities in both a Federal and State environment. Now, I 
know you have touched on this already, but I am hoping that you 
could elaborate on it a little bit more.
    What are your thoughts on the need to expand integrated 
training efforts, including interagency cyber training 
facilities?
    General Alexander. So I think we absolutely need to do it. 
And you bring out some good points in terms of what are the 
roles and responsibilities at the State level, what are the 
roles and responsibility at the Federal level, and how do you 
connect those two? And then how do you build both the bridges 
to the private sector? And all of that has to work seamlessly 
together.
    I think it's about training. I think, first and foremost, 
we have to come up with a vision of how we are going to defend 
this country in cyberspace and get everybody to agree. That's 
part of that common operating picture.
    With that picture, then, the second question that you just 
posed is, so, what is the role of State and National Guard and 
other forces in helping to accomplish that mission? How far can 
they go? Because what you don't want is States that 
independently attack back, you want them to defend. Or if they 
are going to attack, to be part of the Federal--the national 
response, not individual.
    So we have to ensure that all that is bound together. And 
that is a tremendous training requirement, from my perspective.
    Mr. Johnson. I agree with everything General Alexander 
said.
    Mr. Chertoff. I would add one thing. I would like the 
training to include not only defending, but the ability to 
recover when something goes down, as we do in the area of 
training the National Guard when we have a natural disaster.
    Mr. Carbajal. Thank you. And a follow-up question. I know 
this has been touched on as well today. Cybersecurity is such 
of a--a complicated issue. And you touched on earlier about 
threats emanating from neutral areas, or neutral countries.
    How--how difficult is it to pinpoint the origination of the 
attack? Is it 100 percent of the time, we ultimately get to 
that source? Or sometimes we never get to that source? What is 
the percentage success rate, that we are aware, in pinpointing 
the actual threats? Because that leads to attacking, or 
counterattacking, somebody who may or may not be the original 
source.
    Mr. Johnson. In my observation, it's often the case that we 
can identify where the attack is originating from, what 
platform, but then the challenge becomes: Who's pulling the 
strings? Who's ultimately responsible, and who's ultimately 
orchestrating the attack? And I am sure the other two witnesses 
will have views on that as well.
    General Alexander. I actually agree, and Secretary Chertoff 
brought some of those same points out earlier, that you can see 
where it starts from, so it might start in Russia, but Russia 
could say--Russian government could say, ``That's not us, 
that's a hacker, he is outside.''
    Having said that, the problem that our companies would have 
in the National Guard and others is they can see the last point 
coming to them. What they can't do is see all the other points 
leading back to Russia. That's where your national intelligence 
system has to work, and it goes back to Mr. Bacon's question. 
You need to have the ability to see that whole threat and then 
respond, title 10 and title 50, integrated.
    And so I think that's going to be the key for our country.
    Mr. Carbajal. Thank you very much. I yield back, Mr. Chair.
    Ms. Stefanik. Thank you. That concludes our member 
questions. I want to thank the three witnesses here today for 
sharing your policy expertise and your recommendations as we 
move forward.
    Just as an announcement, the Emerging Threats and 
Capabilities Subcommittee, which I chair, is having our cyber 
posture hearing at 3:30 p.m. with Admiral Rogers and Assistant 
Secretary Ken Rapuano to continue this conversation.
    Thank you very much for your service to our Nation, and 
this hearing is adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             April 11, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 11, 2018

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 11, 2018

=======================================================================

      

                    QUESTIONS SUBMITTED BY MS. ROSEN

    Ms. Rosen. As we form public-private partnerships between DOD and 
industry, I'm worried about protecting the integrity of systems and the 
integrity of user data. As DOD moves to the cloud, what are the 
implications regarding public-private partnerships? How do we ensure 
that we have parallels and redundancies to protect systems and users? 
Who owns the proprietary information? If not the U.S. Government, how 
do we ensure that the owner will do their due diligence in safeguarding 
systems and user information? What happens to data when businesses 
close or technology is replaced? Is data destroyed when it's no longer 
used?
    Mr. Chertoff. The vast majority of the DOD's work with industry 
comes in the form of traditional procurements, which are subject to a 
myriad of information security requirements that dictate how government 
data is secured, handled, processed, retained, and managed within 
systems provided by industry partners. These requirements are included 
in all DOD contracts and procurements and are also included in programs 
such as FedRAMP, which is designed to streamline certification of 
commercial offerings for use in Federal IT environments. All of DOD's 
baseline requirements are managed by the Defense Information Systems 
Agency (DISA) and some procurements may have additional requirements 
dictated by the individual service, command, or component within DOD. 
Under these agreements, all government data remains the property of the 
U.S. government and is subject to the handling requirements set forth 
by DOD. This includes data retention and destruction policies, which 
providers are contractually obligated to comply with. These 
requirements may vary widely depending on the needs of the particular 
component, the type of data, and the level of sensitivity. It is the 
responsibility of DOD to ensure that its vendors meet these 
requirements through code reviews, audits, and other means of 
oversight. Failure to comply with these requirements can result in 
civil and criminal penalties for both the vendor and its 
representatives. At present, all these requirements also apply to 
vendors offering cloud services to DOD, though there are efforts 
underway to streamline some of these requirements and adapt them to the 
realities of cloud environments, which are free of many of the 
constraints of traditional IT infrastructure. The largest ongoing DOD 
Cloud procurement, the Joint Enterprise Defense Infrastructure Contract 
(JEDI), is subject to these requirements, though DOD has pledged to 
work with the eventual awardee to identify erroneous requirements to 
speed and streamline adoption. In my view, this is the correct course 
of action--Cloud environments offer new approaches to security that can 
enhance data security while allowing for a more flexible and efficient 
infrastructure. These approaches, such as attribute-based security 
controls, are promising ways to enhance security and efficiency within 
its IT enterprise. DOD Cloud contracts also require some level of 
redundancy for cloud services, generally expressed with uptime 
requirements (99.99999%, for example) and/or requirements regarding the 
number and location of data centers, remote storage sites, and hybrid-
cloud technologies that can help to ensure the underlying system 
remains available. That said many large Cloud providers have 
experienced at least partial outages within their private-sector cloud 
environments, emphasizing the need for redundancy and resilience in any 
cloud offering that might underpin DOD operations. To that end, many 
companies in the private sector utilize what is referred to as a 
``multi-cloud'' environment, which leverages the cloud services of 
multiple vendors to help ensure that the company's cloud-based IT 
enterprise remains available even when a single cloud vendor 
experiences an outage. I think it also worth noting that most major 
cloud vendors offer government-specific clouds separate from their 
private sector clouds. These environments are built on separate 
infrastructure designed to ensure that sensitive government data is not 
comingled with data from the private sector. In fact, several cloud 
providers have built cloud computing offerings specific to various 
levels of classified environments for DOD and the Intelligence 
Community and include additional safeguards and protections as required 
by those organizations for the storage and handling of classified 
information. Beyond traditional procurements, DOD utilizes pilot 
programs, research agreements, and specialized programs such as Defense 
Innovation Unit Experimental (DIUx) to work with technology start-ups, 
labs, academic institutions, and even established technology providers 
to identify and develop technologies that meet the unique needs of DOD 
and its components. Agreements with these entities can sometimes 
resemble traditional procurements, subjecting the partner to many of 
the same IT security requirements. In instances where the intent is for 
the partner to demonstrate and develop a particular technology these 
requirements are generally less stringent, intended to allow the 
partner to first build-out and prove a technology before it is 
incorporated into the broader DOD environment and thus become subject 
to the department's stringent requirements. In such a development 
environment the data being leveraged is non-production data, that is, 
data that is either scrubbed clean of any sensitive or identifying 
information or a dummy dataset that resembles an actual dataset but is 
created artificially for development purposes.
    Ms. Rosen. As we form public-private partnerships between DOD and 
industry, I'm worried about protecting the integrity of systems and the 
integrity of user data. As DOD moves to the cloud, what are the 
implications regarding public-private partnerships? How do we ensure 
that we have parallels and redundancies to protect systems and users? 
Who owns the proprietary information? If not the U.S. Government, how 
do we ensure that the owner will do their due diligence in safeguarding 
systems and user information? What happens to data when businesses 
close or technology is replaced? Is data destroyed when it's no longer 
used?
    General Alexander. The questions you raise about the cloud and 
relevant public-private partnerships are important ones. I am a strong 
believer in the notion that cloud-based systems are inherently more 
secure and more survivable than classic on-premises systems. At the 
same time, it is critically important that in implementing the move to 
the cloud, the government puts in place provisions, in partnership with 
key cloud providers, for ensuring redundancy of systems and the backup 
and availability of data, particularly for mission-critical systems. 
Similarly, the government can and should expect cloud providers to 
provide assurances regarding the safeguarding of systems, user 
information, and critical data; it should also make clear--in 
contractually binding language--what it expects to be done when data is 
no longer being used, when business closed or are acquired, or when 
domestic firms come under significant foreign influence. If the 
government is the buyer, it has every right to set clear and fair 
conditions on what it buys. These conditions should be vendor- and 
technology-neutral, but, if put in place should leverage the carrot of 
Congress's purchasing power. Either along or accompanied by Congress's 
provision of economic incentives to encourage the development of 
government-level security, such conditions can incentivize the creation 
of a more robust cybersecurity environment generally. As a large 
economic actor--and a key buyer of cybersecurity goods and services--
the government has outsized influence on vendors, influence that can 
reasonably be used to achieve such larger goals of creating a more 
cyber-secure environment for government and industry alike. A good 
example of this recently was CIA's work with Amazon to create the 
secure C2S cloud environment. The outgrowths of this capability are 
making public and private systems with highly sensitive data more 
secure and resilient. Likewise, the government can and should work with 
a broad array of vendors in order to find the most capable players in 
this area and to align these capabilities with government needs on a 
going-forward basis. Pivoting to cloud makes good sense from a security 
and resilience perspective and the government should not step back from 
this effort simply because of issues that can and should be reasonably 
addressed by industry as part of the government purchasing process.
    Ms. Rosen. As we form public-private partnerships between DOD and 
industry, I'm worried about protecting the integrity of systems and the 
integrity of user data. As DOD moves to the cloud, what are the 
implications regarding public-private partnerships? How do we ensure 
that we have parallels and redundancies to protect systems and users? 
Who owns the proprietary information? If not the U.S. Government, how 
do we ensure that the owner will do their due diligence in safeguarding 
systems and user information? What happens to data when businesses 
close or technology is replaced? Is data destroyed when it's no longer 
used?
    Mr. Johnson. The following response is on my own behalf, and not on 
behalf of my law firm or any of its clients. To formulate this 
response, I consulted cybersecurity experts I know and trust. As the 
QFR notes, DOD has determined to move toward a public cloud-based 
solution for the storage of its data, classified and unclassified. DOD 
recognizes that its thousands of current networks and data centers is 
not a best practice, and is disadvantageous for DOD and the taxpayers. 
I appreciate DOD's cautious two-phase approach to the issue, beginning 
with a tailored acquisition process. To be sure, there are both risks 
and opportunities for DOD associated with moving toward a public cloud. 
However, the risks can be minimized and opportunities maximized through 
the careful negotiation of a contract with the cloud provider, and such 
a contract should be designed to address many of the concerns reflected 
in the QFR. Contract provisions should include at least the following:
    (1) enhancement of the cloud's security capabilities and the 
sharing of classified threat information with the appropriate personnel 
of the cloud provider; (2) appropriate protocols for incident 
notification to DOD and response; (3) the ability of DOD to directly 
detect and address any malicious activity around its stored data in the 
cloud; (4) appropriate redundancies to protect data systems and users; 
(5) an acknowledgement that DOD data remains the property of DOD; (6) a 
provision to protect DOD data and interests in the event the cloud 
provider closes or is replaced; and (7) adherence by the cloud provider 
to U.S. government and DOD standards for the retention and destruction 
of data.

                                  [all]
</pre></body></html>
